No. 20-7650

In The

Supreme Court of the ?linnets &tuts

In re BO ZOU

—PETITIONER

vs.

LINDE ENGINEERING NORTH AMERICA, INC. —RESPONDENT

ON PETITION FOR A WRIT OF PROHIBITION TO
THE UNITED STATES COURT OF APPEALS FOR THE TENTH CIRCUIT

PETITION FOR REHEARING

BO ZOU
10302 E 71st Street, #1014
Tulsa, OK 74133
Phone: 713-835-8655

TABLE OF CONTENTS

PETITION FOR REHEARING

1

The Tenth Circuit Court of Appeals violated
Fed. R. APP. P. 45 and Constitutional
First Amendment

2

There are enough grounds for intervening
circumstances existing for the rehearing

2

New fact for magistrate judge to usurp
judicial authority
CONCLUSION

5
5

INDEX TO APPENDICES

APPENDIX I:

The letter issued by this Court to refuse filing Petitioner's
"Emergency Application for Stay of Petitioner's Case".

APPENDIX J:

Petitioner's Motion to Delay Petitioner's Case for Conference filed
to this Court on May 20, 2021.

PETITION FOR REHEARING
Pursuant to Rule 44 of this Court, Petitioner hereby submits the petition for
rehearing of this case before a full nine-Member Court. Based on the denial decision of
this Court, Petitioner questions the Justices' impartiality, and US laws whether
ineffective in this Court and whether Respondent's illegal and criminal deeds may be
awarded, rather than sanctioned by this Court.
Petitioner moves this Court to grant this petition for rehearing because of following
substantial grounds:
The Tenth Circuit Court of Appeals cannot follow Federal Rules of Appellate
Procedure to sign the ruling of court by a judge, but signed by the Clerk. The Tenth
Circuit Court of Appeals violated not only Fed. R. App. P. 45, but also Constitutional
First Amendment. Moreover, the Tenth Circuit Court of Appeals cannot show why the
ruling of court may be unpublished for so important and substantial legal issues. The
substantial ground was not previously presented by Petitioner.
There are enough grounds for intervening circumstances of a substantial effect
on whether magistrate judge may knowingly violate Code of Conduct for United States
Judges Cannon 3A(4) to initiate ex parte communication with Respondent.
There are enough grounds for intervening circumstances of a substantial
effect on whether magistrate judge may abuse her discretion to cover and protect
Respondent and Respondent counsels' guilt and crime in perjury and falsifying
documents on a large scale, and contempt of the courts and copyright infringement.
There are enough grounds for intervening circumstances of a substantial effect
on whether magistrate judge may knowingly usurp judicial authority to issue injunctive
reliefs without or in excess of her jurisdictions and authority.
There are enough grounds for intervening circumstances of a substantial effect
on whether Respondent and its counsels may knowingly and blatantly conceal
Respondent's two parent corporations to cheat and be in contempt of this Court.
The petition for rehearing is filed in good faith and in 15 days permitted by this

1

Court.
Petitioner states detailed grounds to support the rehearing as follows:
The Tenth Circuit Court of Appeals violated Fed. R. APP. P. 45 and
Constitutional First Amendment.
Pursuant to Fed. R. APP. P. 45, the clerk of court does not have any authority to
sign and issue a ruling of a case. But, the ruling of court was signed and issued by the
clerk of court, not by a judge of three-judge panel. See APPENDIX "A" in Petitioner's
Writ of Prohibition. It means that the decision for Petitioner's appeal case was made by
the clerk, not made by the panel. The Tenth Circuit Court of Appeals violated not only
Fed. R. APP. P. 45, but also Constitutional First Amendment, which guarantees
freedom of speech, the right to peaceably assemble, and the right to petition the
government for a redress of grievances. These rights are also protected from
infringement by State governments by the Due Process Clause of the Fourteenth
Amendment to the United States Constitution.
Moreover, the Tenth Circuit Court of Appeals cannot show why the ruling of court
may be unpublished. The Tenth Circuit Court of Appeals should state or cite the rule of
court to show the cause why the ruling of court may be unpublished although so
important and substantial legal issues existed in the appeal case.
The above substantial grounds were not previously presented by Petitioner.
There are enough grounds for intervening circumstances existing for the
rehearing.
(1). Code of Conduct for United States Judges Cannon 3A(4) clearly prohibits a
judge from initiating, permitting, or considering ex parte communications or considering
other communications concerning a pending or impending matter that are made outside
the presence of the parties or their lawyers. Magistrate judge Jodi F. Jayne actively
initiated ex parte communications with Respondent. Magistrate judge's deeds have
violated Code of Conduct for United States Judges Cannon 3A(4) and made her
disqualification for this lawsuit. There are enough grounds for intervening

2

circumstances of a substantial effect on whether magistrate judge may violate Code of
Conduct for United States Judges Cannon 3A(4) to initiate ex parte communications
with Respondent.
Falsifying a document is a crime punishable as a felony. In this case,
Respondent falsified documents on a large scale without sanctioning because magistrate
judge abused her discretion to cover and protect Respondent's crime of falsification on
documents. Magistrate judge's deeds have made her disqualification for this lawsuit.
Petitioner has provided factual evidence for this Court. But, this Court ignored the facts
and denied Petitioner's Writ of Prohibition.
Moreover, magistrate judge abused her discretion to cover and protect Respondent
and Respondent judges' perjury, contempt and copyright infringement. So, there are
enough grounds for intervening circumstances of a substantial effect on whether
magistrate judge may abuse her discretion cover and protect Respondent and
Respondent counsels' guilt and crime in perjury and falsifying documents on a large
scale, and contempt of the courts and copyright infringement.
Magistrate judge usurps judicial authority to rule on Petitioner's two motions
(Dkt. Nos. 34, 89) in violation of Fed. R. Civ. P. 11 and 28 U.S. Code § 636 (e)(4)
respectively, and issue temporary restraining order (Dkt. No. 72) in violation of Fed. R.
Civ. P. 65(b), and issue preliminary injunctions in violation of 28 U.S. Code § 636
(b)(1)(A) to help and protect Respondent without or in excess of her jurisdictions and
authority. Writs of Prohibition arrest the proceeding of any "tribunal, corporation,
board or person exercising judicial functions, when such proceedings are without or in
excess of the jurisdiction of such tribunal, corporation, board or person. There are
enough grounds for intervening circumstances of a substantial effect on whether
magistrate judge may knowingly usurp judicial authority to issue injunctive reliefs and
rule on two motions without or in excess of her jurisdictions and authority.
Respondent and Respondent's counsels blatantly concealed Respondent's two
3

parent corporations LINDE PLC and LINDE ENGINEERING US LLC in Respondent's
DISCLOSURE STATEMENT filed to this Court on May 3, 2021. The counsel Jessica
Lynn Craft just signed her oath or affirmation under the Rule 5.4 of this Court, and was
admitted to the bar of this Court on March 22, 2021. Jessica Lynn Craft immediately
cheated this Court and filed false statement to this Court. Petitioner has provided
factual evidence in Petitioner's 'Reply Brief'. However, this Court distributed
Petitioner's Writ of Prohibition for conference prior to Petitioner's "Reply Brief posted
on the website of this Court. The Justices and the judges in the lower courts may have
interest conflicts with Respondent's two undisclosed parent corporations. It's necessary
for this Court to do some investigations before distributing Petitioner's Writ of
Prohibition for conference.
Moreover, this Court ignored the facts and did not sanction on Respondent and
Respondent counsels' blatant cheat and contempt of this Court by concealing
Respondent's two parent corporations. It's necessary and appropriate for this Court to
sanction Respondent and its counsels, and vacate the rulings made by the lower courts.
So, there are enough grounds for intervening circumstances of a substantial effect on
whether Respondent and its counsels may knowingly and blatantly conceal Respondent's
two parent corporations without sanctioning by this Court.
The clerk office refused to file and docket Petitioner's "Emergency Application
to Delay Petitioner's Case" submitted by Petitioner on May 28, 2021. The clerk office
actually received Petitioner's application at 9:06 AM on June 1, 2021 (See FedEx
tracking No. 787719204970). However, Petitioner's application was stamped to be
received on June 2, 2021. In the refusal letter issued by the clerk office on June 2, 2021,
the clerk office asserted that Petitioner's application was received on June 20, 2021, and
refused to file and consider Petitioner's application because Petitioner's Writ of
Prohibition was denied on June 7, 2021. See APPENDIX "I". So, there are enough
grounds for intervening circumstances existing for the rehearing.
Petitioner filed the motion to delay Petitioner's case for conference on May

4

20, 2021 because this Court just received Petitioner's "Reply Brief"on May 19, 2021, but
immediately distributed Petitioner's case for conference, prior to Petitioner's "Reply

Brief' posted online and distributed to the Justices. This Court received Petitioner's
motion on May 24, 2021. See APPENDEX "J". However, this Court violated Rule 21 of
this Court not filing and docketing Petitioner's motion. Also, Petitioner never finds that
this Court mentioned or denied "Petitioner's motion to delay Petitioner's case for

conferences. Petitioner wonders where Petitioner's motion is. Why Petitioner's motion
may be arbitrarily pended or held by the Clerk office, and not distributed for the
Justices to review? This Court cannot arbitrarily violate Rule 21 of this Court to dismiss
Petitioner's motion. So, there are enough grounds for intervening circumstances existing
for the rehearing.
3. New fact for magistrate judge to usurp judicial authority.
Magistrate judge Jodi F. Jayne arbitrarily changed deposition for 6-10 fact
witnesses, agreed and granted by both parties in joint status report and approved by the
district judge, to 4 fact witnesses without or in excess of her jurisdiction and authority.
The reason is not provided in "Petition for Writ of Prohibition"and "Reply Brier.

CONCLUSION
For the forgoing grounds, the petition for rehearing should be granted. Respondent
and Respondent's counsels' illegal and criminal deeds should be sanctioned by this
Court, rather than encouraged and awarded by this Court.

Respectfully submitted,

Date: July 7, 2021

5

CERTIFICATE OF PRO SE PETITIONER

I hereby certify that this petition for rehearing is presented in good faith and not
for delay, and the grounds are limited to intervening circumstances of substantial or
controlling effect or to other substantial grounds not previously presented.

31244447
Pro Se Petitioner

6

SUPREME COURT OF THE UNITED STATES
OFFICE OF THE CLERK
WASHINGTON, DC 20543-0001
June 2, 2021

Bo Zou
4920 S YorktoWn Avenue #122
Tulsa, OK 74105
RE: In Re Bo Zou
Application for stay
No: 20-7650
Dear Zoti:
Your application for stay received June 20, 2021 is herewith returned for the following
reason(s):
Your petition fora writ of certiorari was denied by the Court on Junp 7„2021,
therefore this Court no longer has jurisdiction over your case.

Sincerely,
Scott S. Harris, Clerk
By:
Mara Silver
(202) 479-3027

Enclosures

APPENDIX "I"

a40

No. 20-7650

In The

&tyre= Court of the Enact' &totes%

In re BO ZOU

—PETITIONER

vs.

LINDE ENGINEERING NORTH AMERICA INC. —RESPONDENT

ON PETITION FOR A WRIT OF PROHIBITION TO
THE UNITED STATES COURT OF APPEALS FOR THE TENTH CIRCUIT

PETITIONER'S MOTION TO DELAY
PETITIONER'S CASE FOR CONFERENCE

BO ZOU
4920 S Yorktown Avenue, #122
Tulsa, OK 74105
Phone: 713-835-8655

APPENDIX "J"

a41

PETITIONER'S MOTION TO DELAY
PETITIONER'S CASE FOR CONFERENCE

Petitioner hereby respectfully submits the Motion to request this Court to delay
Petitioner's Writ of Prohibition for conference until June 10, or June 17, 2021.
On March 22, 2021, Petitioner filed the Petition for Writ of Prohibition, which was
docketed by this Court on April 1, 2021. Respondent filed its Response in Opposition on May 3,
2021. Pursuant to Rule 15 of this Court, Petitioner has fourteen (14) days to file Petitioner's
Reply Brief. Petitioner filed his Reply Brief on May 14, 2021. Petitioner's Reply Brief was
received and signed by this Court at 9:49 AM on May 18, 2021. Usually, this Court will docket
the document first, and then at least a few days or one week later, distribute the documents for
Justices to review.
However, on May 19, 2021, this Court quickly distributed Petitioner's case for June 3
conference, But, Petitioner's Reply Brief was not posted and distributed until noon, May 20,
2021. It's too hurry for Petitioner's Reply Brief to be carefully reviewed by the Justices in so
short period because there are perhaps more than one hundred cases and their documents
needed to be reviewed by the Justices in eight (8) business days (excluding one day per week
for conference). Especially, in Petitioner's Reply Brief, Petitioner requests this Court to
sanction on Respondent and Respondent counsels' blatant contempt of this Court and the
lower courts by knowingly and willfully concealing Respondent's two parent corporations since
the beginning of the case.
Petitioner seeks justice from this Court concerning whether magistrate judge Jodi F.
Jayne may abuse her discretion to cover and protect Respondent's guilt and crime in perjury
and falsifying documents, contempt and copyright infringement without disqualifying; and
whether magistrate judge may knowingly usurp judicial authority to rule on Petitioner's two
motions and issue temporary restraining order and preliminary injunctions without or in

1
a42

excess of her jurisdictions and authority without disqualifying.
Therefore, it's very important to give the Justices enough time to review Petitioner's Writ
of Prohibition and Reply Brief. The documents for Petitioner's Writ of Prohibition and Reply
Brief should be carefully reviewed and considered by the Justices in enough time.
So, Petitioner hereby respectfully requests this Court to delay Petitioner's Writ of
Prohibition for conference until June 10, or June 17, 2021.

Respectfully submitted,

Date: May 20, 2021

2

a43

No.

20-7650

In The

'upreme Court of the Zilutteb Otani
— PETITIONER

In re BO ZOU

VS.

LINDE ENGINEERING NORTH AMERICA, INC. — RESPONDENT

PROOF OF SERVICE
I, BO ZOU do swear or declare that on this date, July 7, 2021, as required by the
US Supreme Court, I have served the enclosed PETITION FOR REHEARING on
each party to the above proceeding or that party's counsel, and on every other person
required to be served, by depositing an envelope containing the above documents in
the United States mail properly addressed to each of them and with first-class postage
prepaid.
The names and addresses of those served are as follows:
Jonathan G. Rector, 2001 Ross Avenue, Suite 1500, Lock Box 116,
Dallas, TX 75201
I declare under penalty of perjury that the foregoing is true and correct. Executed
on July 7, 2021.

RECEIVED
JUL 1 3 2021
OFFICE OF THE CLERK

ThAttgUPREME COURT, U.S.

3

(Signature)

No. 20-7650

In The

Supreme Court of the liniteb States

—PETITIONER

In re BO ZOU
vs.

LINDE ENGINEERING NORTH AMERICA, INC. —RESPONDENT

ON PETITION FOR A WRIT OF PROHIBITION TO
THE UNITED STATES COURT OF APPEALS FOR THE TENTH CIRCUIT

CERTIFICATE OF WORD COUNT

I, BO ZOU, hereby certify pursuant to Supreme Court Rule 33.1(h) that the Petition
for Rehearing contains 1,595 words, excluding the parts of the document that are
exempted by Rule 33.1(d). I declare under penalty of perjury that the foregoing is true
and correct.

Respectfully submitted

July 7, 2021.

